<html>
<title> - BRIDGING THE SKILLS GAP: HOW THE STEM EDUCATION PIPELINE CAN DEVELOP A HIGH-SKILLED AMERICAN WORKFORCE FOR SMALL BUSINESS</title>
<body><pre>[Senate Hearing 113-169]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-169
 
                 BRIDGING THE SKILLS GAP: HOW THE STEM

                    EDUCATION PIPELINE CAN DEVELOP A

           HIGH-SKILLED AMERICAN WORKFORCE FOR SMALL BUSINESS
=======================================================================


                               ROUNDTABLE

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


         Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
86-153                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED THIRTEENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                 JAMES E. RISCH, Idaho, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     MARCO RUBIO, Florida
MARIA CANTWELL, Washington           RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              TIM SCOTT, South Caarolina
BENJAMIN L. CARDIN, Maryland         DEB FISCHER, Nebraska
JEANNE SHAHEEN, New Hampshire        MIKE ENZI, Wyoming
KAY R. HAGAN, North Carolina         RON JOHNSON, Wisconsin
HEIDI HEITKAMP, North Dakota
WILLIAM M. COWAN, Massachusetts
                Jane Campbell, Democratic Staff Director
           Skiffington Holderness, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1
Risch, Hon. James E., Ranking Member, and a U.S. Senator from 
  Idaho..........................................................     8
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     9
Pryor, Hon. Mark L., a U.S. Senator from Arkansas................    10

                           Witness Testimony

Kolvoord, Bob, Co-director, Center for STEM Education and 
  Outreach, James Madison University.............................     4
Ferrini-Mundy, Joan, Assistant Director, National Science 
  Foundation for Education and Human Resources...................     5
Uvin, Johan, Deputy Assistant Secretary, U.S. Department of 
  Education......................................................     5
McAdams, Camsie, Senior Adviser on STEM Education, U.S. 
  Department of Education........................................     6
Fiala, Gerri, Deputy Assistant Secretary, U.S. Department of 
  Labor..........................................................     6
Belsky, Leah, Senior Vice President of Operations, Kaltura.......     7
Mooney, Dee, Executive Director, Micron Foundation...............     7
Goodman, Loren, Chief Technology Officer and Co-founder, InRule 
  Technology.....................................................     7
Moneypenny, Naomi, Chief Technology Officer and Co-founder, 
  ManyWorlds, Inc................................................     7
Taylor, Shree, Managing Partner, Delta Decisions DC, LLC.........     8
Wang, Rose, Founder and CEO, Binary Group........................     8

          Alphabetical Listing and Appendix Material Submitted

Belsky, Leah
    Testimony....................................................     7
    Biographical sketch..........................................    52
Ferrini-Mundy, Joan
    Testimony....................................................     5
    Biographical sketch..........................................    39
Fiala
    Testimony....................................................     6
    Prepared statement...........................................    45
Goodman, Loren
    Testimony....................................................     7
    Prepared statement...........................................    55
    Letter dated June 6, 2013, from Loren Goodman to Chair 
      Landrieu and attachment....................................    71
Kolvoord, Bob
    Testimony....................................................     4
    Biographical sketch..........................................    38
Landrieu, Hon. Mary L.
    Opening statement............................................     1
McAdams, Camsie
    Testimony....................................................     6
    Biographical sketch..........................................    44
Moneypenny, Naomi
    Testimony....................................................     7
    Prepared statement...........................................    59
Mooney, Dee
    Testimony....................................................     7
    Prepared statement...........................................    53
North, David S...................................................
    Prepared statement...........................................    73
Parker, Randi....................................................
    Letter dated May 21, 2013, from Randi Parker to Chair 
      Landrieu and Hon. James Risch..............................    76
    Report titled ``Youth Opinions of Careers in Information 
      Technology''...............................................    78
    Report titled ``State of the IT Skills Gap''.................    99
Pryor, Hon. Mark L.
    Opening statement............................................    10
    Prepared statement...........................................    11
Risch, Hon. James E.
    Opening statement............................................     8
    Prepared statement...........................................    40
Shaheen, Hon. Jeanne
    Opening statement............................................     9
    Prepared statement...........................................    40
Taylor, Shree
    Testimony....................................................     8
    Prepared statement...........................................    63
Uvin, Johan
    Testimony....................................................     5
    Prepared statement...........................................    40
Wang, Rose
    Testimony....................................................     8
    Prepared statement...........................................    67


                 BRIDGING THE SKILLS GAP: HOW THE STEM

                    EDUCATION PIPELINE CAN DEVELOP A

           HIGH-SKILLED AMERICAN WORKFORCE FOR SMALL BUSINESS

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
Room 428, Russell Senate Office Building, Hon. Mary L. Landrieu 
(chair of the committee) presiding
    Present: Senators Landrieu, Pryor, Shaheen, and Risch.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, CHAIR, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chair Landrieu. Good morning. Our Small Business Roundtable 
will come to order. We are expecting a couple of our members to 
join for a hopefully informative and informal hour-and-a-half 
to two-hour discussion about a very important matter pending 
before the Congress, and that is, Bridging the Skills Gap, How 
Stem Education Pipeline Can Develop a Higher Skilled American 
Workforce for Small Businesses.
    There is a lot of focus in my view on what large businesses 
may need, GE, IBM, et cetera, but not enough in this discussion 
on immigration reform, in my view, about what the critical 
skill gaps are with small businesses, 10, 25, 50, 100 
employees; start up businesses; and is the immigration bill 
that passed the Committee just last night, which in my view was 
the right step forward. I am generally supportive of 
comprehensive immigration reform.
    But we are going to explore today, I am sure you all are 
familiar with what is in that bill as we have been following it 
closely to see how it affects the small business skills gap 
issue.
    So, thank you for joining us at the Roundtable. As I 
stated, the purpose is to discuss challenges faced by startups 
and small- and medium-size business relative to workforce 
training and readiness.
    It will cover America's need to bridge the current 
workforce skill gap and fuel small business growth through the 
development of a sustainable STEM education pipeline.
    The central question I want to ask to you all today: What 
are the skills that workers and potential employees of small 
businesses need to meet the demands of small business owners 
and how can we make sure that all Americans, including women 
and minorities, develop the skills necessary to be hired and 
meet the opportunities for growth and expansion of many small 
businesses in America that have, indeed, a very promising 
future?
    We have assembled here today an impressive group of policy 
experts and small business owners to help us explore the answer 
to this question. So, thank you all for being with us today.
    This is the second in a series of roundtables that will 
focus on the specific immigration reform issues that are in the 
major piece of legislation that are affecting small business.
    We will share these ideas, comments, questions, and 
solutions that have come from our roundtable with the 
cosponsors of the bill and some of these ideas may turn into 
amendments on the floor of the Senate or the House.
    As you have all heard, S. 744 passed out of Judiciary last 
evening with a vote of 13 to 5. Last week in this Committee, in 
this room, we had a spirited and informative discussion about 
the ramifications of the E-Verify program on small businesses 
as proposed by S. 744, The Border Security Economic Opportunity 
and Immigration Modernization Act of 2013.
    In a few weeks, we will hold our third and final roundtable 
on immigration that looks at innovative border security 
technologies, what portal is DHS using to open up opportunities 
for small businesses in America that have the technology 
currently available to help secure our borders and bring more 
transparency to the process of government contracting.
    The American Society for Training and Development defines 
the skills gap as a significant gap between the organization's 
current capacity and skills it needs to achieve its goals.
    It is the point at which an organization can no longer grow 
or remain competitive because it can not fill the critical jobs 
with employees who have the right knowledge, skill set, and 
abilities.
    According to the latest data from the Bureau of Labor 
Statistics, the U.S. currently has 3.7 million job openings 
waiting to be filled. I believe that most people, at least the 
people that I represent, want to work and many businesses want 
to hire but the widening skill gap prevents many Americans from 
filling the jobs of the 21st century and from our exciting 
small businesses from expanding.
    According to the International Center for Leadership in 
Education, the skills gap in the country has resulted from a 
shift in our economy that is becoming increasingly supported by 
STEM-based industries and occupations, science, technology, 
engineering, and math.
    These occupations include computer software engineers, 
network and database administrators, physician assistants, and 
home health aides. It seems to me that software engineers, 
network and database administrators, and physician assistants, 
and home health care aides could be trained in the domestic 
workforce right here in America, although there is a big push 
to open up opportunities for foreign workers to come in for 
these and other jobs.
    Additionally, according to a recent report by the 
Congressional Research Service, jobs in many occupations even 
non-STEM occupations require a high level of STEM knowledge 
than ever before. Students who pursue STEM-based education 
programs gain thinking, problem-solving skills that will enable 
them to be successful.
    Most significantly a large percentage of the workforce in 
industries and occupations that rely on STEM knowledge and 
skills are technicians and others who enter and advanced in 
fields associated with degrees and certificates through the 
workplace training.
    According to Wells Fargo Gallup Small Business Index, even 
though half of small business owners hired new workers in 2010, 
42 percent of these hired, fewer employees than needed.
    That is a very interesting statistic. I want to repeat 
that. According to a Wells Fargo Gallup Small Business Index 
survey, even though half of small business owners in America 
hired new workers in 2010, 42 percent said they hired fewer 
than needed, I am assuming because they could not find the 
right skills.
    Sixty-two percent of that group said it was because it was 
hard to find qualified employees for positions available.
    A study by the National Research Council shows that small 
businesses employ nearly 40 percent of American scientists and 
engineers, produce four times more patents than larger 
businesses and universities and produced patents that are of 
higher quality and more than twice as likely to be cited. That 
is pretty exciting.
    One part of the bill being debated by the Judiciary 
Committee would raise the number of H-1B visa recipients to a 
maximum of 180,000 from the current 65,000, nearly doubling the 
amount of foreign workers that U.S. businesses would be able to 
hire.
    An additional 25,000 H-1B visas will be reserved for 
foreign students who have obtained advanced degrees in science, 
technology, and engineering.
    While allowing these high-skilled foreign STEM graduates to 
stay, work, and grow businesses in the U.S. is something that I 
support, it is something that is already in the bill. It can 
most help us close the skill gap in the near term. I personally 
believe we must take the steps necessary to develop our own 
domestic workforce to meet the continued needs of U.S. business 
in the decades to come. That is what this panel is about.
    Companies want to expand and hire additional employees. 
However, too few American workers have been given the 
opportunity for retraining, potentially too few students are 
graduating with STEM skills. Why is that happening when we are 
spending billions and billions of dollars of education in the 
United States?
    For example, according to the Department of Commerce, 
minorities comprise only 28 percent of the overall STEM 
workforce; they represent 36 percent of the total workforce but 
only 28 percent of the STEM workforce.
    Women make up 48 percent of the national workforce while 
they makeup just 24 percent of the STEM workforce or STEM 
workers. Furthermore in 2007, unrepresented minority groups 
comprise 33.2 percent of college-age population in the United 
States but only 17 percent of undergraduate students earned a 
STEM degree.
    So, the work by the Judiciary Committee has been finalized 
but the work of the Senate has not. Our Committee hopes to 
provide some informed debate for the Senate floor on this 
issue.
    Last week, the Senate Judiciary Committee adopted Senator 
Hatch's amendment that will add $1000 fee in addition to what 
was already in the bill for an H-1B petition. These new funds 
will be deposited in the STEM education and training account 
that will raise an estimate of $135 million per year. Seventy 
percent of these funds will be distributed to states for STEM-
related grants for the purpose of improving STEM education so 
that it meets the needs of both students and employers, and I 
would say employees that need retraining.
    The National Science Foundation will receive 20 percent for 
STEM capacity building at minority-serving institutions of 
higher ed, and the remainder will be divided between the 
departments for job training and administrative costs. While 
this is a step in the right direction, the question is: Is it a 
big enough step to make a difference?
    This new fund is in addition to the existing H-1B non-
immigrant petitioner account that also uses H-1B visas to fund 
STEM scholarships. Together these funds will raise between $230 
million and $300 million per year which sounds like a lot 
except I am going to figure out how much money we are spending 
per year in all of education. I think this will be a drop in 
the bucket.
    While this is certainly a move in the right direction, I 
believe we can do more. I believe our country needs a more well 
trained domestic workforce as well as opening up opportunities 
for foreign workers to come in in the short term and help us 
fill the gap.
    Are we as legislators doing enough to meet the needs of our 
small businesses? What exactly are those needs? What would 
small businesses like to see? That is going to be part of the 
roundtable today.
    Before I ask you to introduce yourselves, I would like to 
go over the format. We have done this now successfully, I 
think, and we have gotten a lot of good feedback about our 
roundtables.
    This is very informal. It is not like a regular hearing. I 
am going to ask each of you to introduce yourself and speak for 
less than one minute about your main theme or idea. Then, I am 
going to ask a series of questions that you all can respond to 
as you will.
    You should just place your name card up like this with your 
name facing me so that I can call on you. Why do we not start 
to my left with Dr. Kolvoord to introduce yourself and give 
just kind of a one-minute thought or, you know, comment and 
then we will begin with questions.
    Dr. Kolvoord. Thank you, Senator Landrieu. My name is Bob 
Kolvoord. I am the Co-director of the Center for STEM Education 
and Outreach at James Madison University.
    My interest here is in thinking through the possibilities 
in higher education to provide additional STEM opportunities 
for students beyond the traditional ones that we have offered 
for a long time.
    Often higher education is somewhat slow to change, I think 
might be a charitable way to say it. We at James Madison have 
pioneered some interesting and innovative new programs to draw 
additional students to STEM majors and through to graduation. 
We have increased our STEM majors more than 25 percent in the 
last five years.
    I would like to share details of the appeal of some of 
those programs to women and under-represented minorities.
    Chair Landrieu. Well, we are very excited about that. Thank 
you very much and we look forward to getting some detail.
    Dr. Ferrini-Mundy.
    Ms. Ferrini-Mundy. Good morning, Chair Landrieu.
    Chair Landrieu. You have to speak into your mic and kind of 
lean into it like this because it is a little difficult but it 
will pull toward you.
    Ms. Ferrini-Mundy. Good morning and good morning roundtable 
participants and distinguished guests.
    My name is Joan Ferrini-Mundy, and I am the Assistant 
Director at the National Science Foundation for the Education 
and Human Resources Directorate, and I am very pleased to be 
here today.
    At the National Science Foundation, we engage, through 
competitive merit review processes, in funding projects of a 
range of types that are intended to support STEM education and 
workforce development.
    So particularly, I would like to highlight our advanced 
technological education program as one example of a strategy 
that the NSF has used to encourage partnerships among 
institutions of higher education, mostly community colleges in 
this case, with local industry and business to develop 
preparation programs for technicians and technology experts who 
can really be well prepared to move into those business 
settings quickly.
    And so, we feel that that kind of a strategy together with 
funding more research about what it takes to be well prepared 
for business and how to close the skills gap of which you spoke 
are important ways for the Federal Government to support the 
improvement of preparation in the workforce.
    Chair Landrieu. Wonderful.
    And I cannot see your name card. I am sorry. Okay. Mr. 
Uvin.
    Mr. Uvin. Good morning, Chair Landrieu. I am Johan Uvin. I 
am a Deputy Assistant Secretary at the U.S. Department of 
Education and I coordinate our policy issues in the Office of 
Vocational and Adult Education, focusing on adult education, 
career----
    Chair Landrieu. Is your button pressed? I am sorry. Press 
the talk button.
    Mr. Uvin. I coordinate our policy issues around adult 
education, secondary and post-secondary career and technical 
education, which has a great STEM focus in it and our community 
college work.
    In my opening remarks I want to draw attention to the fact 
that the Administration is proposing a comprehensive 
reorganization of STEM education programs to support a cohesive 
national STEM educational strategy and to increase the impact 
of federal investments in the 2014 budget proposals to 
consolidate or restructure more than half of the 226 STEM 
programs and redirect the funding to four priority areas, pre-
kindergarten through grade 12 instruction, undergraduate 
education, graduate fellowships, and informal education 
activities.
    We have a handout for everyone, and we would be more than 
happy----
    Chair Landrieu. That would be wonderful if the staff could 
pass that around and people can glance at it as they are here.
    I am very proud and aware and proud of the Administration's 
efforts to consolidate and streamline and really meet the 
challenge of a domestic workforce that is probably not having 
as much opportunity as could be provided if the government and 
our private sector partners would restructure themselves 
appropriately.
    So, thank you. We look forward to getting into some detail.
    The Ranking Member has just arrived. I would like to go 
ahead and have everybody finish introducing themselves and then 
we will recognize the Ranking Member for opening comments.
    Ms. McAdams.
    Ms. McAdams. Good morning, and thank you very much for 
having us here and also for the leadership that you have shown 
on this issue.
    I am familiar with many of the STEM focused schools and 
STEM efforts in your State and in the States of other members 
of this Committee, and I am coming to you as a Senior Adviser 
on STEM Education at the U.S. Department of Education and also 
as a former educator. I taught math and science in urban public 
schools for 10 years and was also the STEM District 
Administrator as well here in the District of Columbia.
    So, the perspective that I bring also comes from what 
teachers and students are doing that is working and also what 
we need more of and I think what we need the most of is 
partnerships and more people helping to bridge academic 
achievement gaps but also skills gaps.
    I am happy to answer questions about our proposals, not 
only in the fiscal year 2014 budget but also current 
investments that the Department of Education has made to help 
improve STEM education both at the P through 12 level and in 
our higher education space.
    Thank you very much.
    Chair Landrieu. Wonderful.
    Ms. Fiala.
    Ms. Fiala. Good morning. Thank you, Chair Landrieu.
    Chair Landrieu. Press your button and speak into your mic.
    Would the staff please be of assistance?
    Ms. Fiala. Can you hear me now?
    Chair Landrieu. Yes. Pull the mic a little bit closer to 
you. There you go.
    Ms. Fiala. Thank you, Chairman Landrieu, and thank you 
Ranking Member Risch. We are very pleased to be here today to 
talk about the work that we are doing at the Department of 
Labor to meet the skill needs of America's small businesses, 
and particularly we know that you are interested in the job 
training funds that we funded through our share of H-1B revenue 
fees paid by employers.
    So I want to talk about those a bit. I want to talk about 
the partnerships. I think that is terribly important, which was 
emphasized between employers and the training organizations to 
define what is needed by small business.
    Our long-term goal in this effort is to decrease the need 
for H-1B visas by helping American workers develop the high 
skills that they need to meet the requisite requirements, skill 
requirements of America's employers.
    Chair Landrieu. Thank you. Very interested in that. While I 
am very open to foreign workers coming in and I can absolutely 
agree the statistics are clear that we need to fill this gap in 
the near future, I think every American would like us to do 
more to develop our own workforce here at home and give people 
opportunities here at home. I am glad to know you are focused 
on that.
    Ms. Belsky.
    Ms. Belsky. Thank you for having us here today. I am here 
representing an organization called Engine Advocacy, which 
represents hundreds of startups throughout the U.S., and I 
myself am an executive at a startup company called Kaltura.
    We are a 200-person company that grew from about 15 over 
the past few years. We are headquartered in New York with R and 
D centers in Israel, and we were founded by four immigrants.
    So, there is a lot I can share just from on the ground 
experience, both from our own business but also from working 
with the network of startups at Engine, and I am on their board 
of advisors.
    Chair Landrieu. Thank you.
    Ms. Mooney.
    Ms. Mooney. Yes. Hello. Thank you for having me here today. 
I represent a company called Micron. We manufacture memory in 
virtually all of our electronic products. I am actually from 
the Micron Foundation.
    Our mission is to support math and science education 
programs. So, I am very interested in the conversation here 
today. We believe in three areas, supporting our teachers, 
supporting our students and our community. Those public-private 
partnerships are where we need to come together to increase the 
STEM pipeline.
    Thank you.
    Chair Landrieu. Thank you very much.
    Mr. Goodman.
    Mr. Goodman. Hello. Thank you very much for having me here 
and giving me an opportunity to speak. My name is Loren 
Goodman. I am the Chief Technology Officer for a software 
company in Chicago, and we have two problems.
    One is a deficit of finding talent which has put us in a 
difficult situation; and on another level, I really think to 
approach the STEM problem we need to make programming literacy 
on par with the time tables in our education system, that there 
is a common denominator of all of these which is the ability to 
make technology do what you want, and we are not baking it into 
kids on a par with the other things that we teach them.
    I think an entire country or people who can program and 
make a computer do anything will be far better prepared to 
compete with other countries as we go forward.
    Chair Landrieu. Thank you, Mr. Goodman.
    Ms. Moneypenny. An appropriate name for this Committee.
    [Laughter.]
    That is right. I know.
    Chair Landrieu. But money dollars would be better but go 
right.
    Ms. Moneypenny. I am sorry. I will change my name to that.
    I really do appreciate the opportunity to be here. I am 
Naomi Moneypenny. I am the Chief Technology Officer at 
ManyWorlds. We are a small software company out of Houston, 
Texas.
    What we are really focused on is having that workforce 
available to us. We are struggling currently finding the talent 
that we need, and the talent that we can get actually we are 
competing against much, much larger firms to get. So, we have 
had to resort to, you know, importing some of that talent, even 
off-shoring some of the jobs that we need.
    Another focus for us just because you had it in your 
opening comments is actually around the patent process. About 
20 percent of our revenues go to research and development, 
primary research and development.
    So, patenting is a very important process for. We have over 
15 granted patents already and another 25 or so in the works.
    So, finding the workforce, those specific skills that we 
really need and how do we drive those into the education system 
so that, as Loren was saying, we can adapt and move quickly and 
maintain American competitiveness.
    Chair Landrieu. Thank you very much.
    Dr. Taylor.
    Ms. Taylor. Good morning. Thank you for the invitation to 
be here. I am Shree Taylor. I am the cofounder and managing 
partner of Delta Decisions of DC.
    We are a small business that focuses on the use of data to 
solve a broad range of problems for organizations and 
businesses as well in the federal, state, and sectors.
    I am interested in developing solutions and also 
partnerships to help demystify, expose, and mentor our STEM 
students. My bachelors, Masters, and PhD are all in applied 
mathematics. So, it is very possible to have homegrown talent 
here. I graduated from Clark-Atlanta University in Atlanta, 
Georgia, which is an HBCU. My PhD is from North Carolina State 
University.
    Chair Landrieu. Ms. Wang.
    Ms. Wang. Thank you, Senator, and thank you for the 
Committee for inviting me to be here. I am here as a member of 
WIPP, Women Impacting Public Policy, as well as CEO of my own 
firm, Binary Group. We are a government technology consulting 
firm providing technology solutions to the Department of 
Defense.
    What I want to talk about here are two things. One is we 
cannot find enough cleared skilled engineers to hire. We have 
opened billets that we cannot fill because there are just not 
people out there ready to be hired. That is one issue.
    The other one is one of my passions. I am actually an 
immigrant and he came here on a bill that was that in 1990, 
Chinese Students Protections Act. I am passionate about STEM 
because my background is computer science. I think we can do a 
lot more here in this country to build a skilled bench for the 
U.S. economy by encouraging young girls and boys, starting with 
math and science education early. That is what my personal 
belief is that that education has to start very early.
    Chair Landrieu. Thank you so very much.
    Ranking Member Risch.

OPENING STATEMENT OF HON. JAMES E. RISCH, RANKING MEMBER, AND A 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Madam Chairman.
    First of all, this issue is not a new issue, and we are so 
glad to have somebody from Micron Technology here. She has a 
background that can tell us all about this.
    Micron Technology is the world's second-largest maker of 
DRAMS in the world. It was founded in a garage in Boise, Idaho, 
by three very entrepreneurial people and it has grown to what 
it is today.
    Boise does not have access to the large pool of engineering 
talent like a lot of places in the country have; and so, for 
many years under the leadership of Steve Appleton, who we 
tragically lost not long ago, Micron Technology set about doing 
what everybody in this room is talking about today; and that 
is, fostering an understanding and an interest in the STEM 
education not only for young people but all the way through the 
colleges and universities.
    Micron has been a tremendous benefactor of the universities 
as far as engineering education in Idaho.
    Having said all of that, they also recognize the pragmatics 
that we have today; and that is, even with all these efforts, 
and they have made Herculean efforts in Idaho, they still are 
not able to get the talent that they need.
    So, the visa program at least as we work our way through 
trying to get more students interested in this and bringing 
more students on line is going to have to play a major role for 
American companies.
    And, I meet with American companies every day, including 
ones in Idaho, that cannot get the help that they need to do 
the work. Now, that does not mean the work is not going to get 
done. What it means is the work is not going to get done here. 
It is going to get done overseas and we are going to lose 
tremendous benefit from that.
    So, it is important that we do focus on all aspects of 
this. The work that we do today for kids that are just starting 
out that you, Ms. Wang, referred to is not going to bear fruit 
for many, many years to come, indeed, in two decades.
    So, we have to focus on all aspects of this, and I believe 
that is what we should talk about here at the hearing today.
    Thank you, Madam Chairman.
    Chair Landrieu. Thank you very much.
    Senator Shaheen, thank you for joining us.

 OPENING STATEMENT OF HON. JEANNE SHAHEEN, A U.S. SENATOR FROM 
                         NEW HAMPSHIRE

    Senator Shaheen. Thank you, Madam Chair and Ranking Member 
Risch, very much for holding this roundtable discussion.
    I especially appreciate all of you who are here to join us 
in this discussion as we think about how do we ensure the 
skilled workforce that we need in the future, and that is 
really, I only heard the end of what you said, Ms. Wang, but I 
think that is the point you were making is that we have got to 
make sure that we have students who are engaged in STEM 
subjects.
    And, I think one of the ways to do that is through 
providing more opportunities for hands on experience in those 
STEM subjects; and we have some great examples of programs like 
the first robotics competition, Raytheon's Rocketeer program, 
the real-world design program, all of which provide that kind 
of hands-on experience.
    One of the things we need to do is to encourage schools to 
participate in those programs. I am going to introduce 
legislation tomorrow to try to do that; and hopefully, as you 
all know, we can get more and more of our young people 
particularly starting at that age to get excited.
    And, I have to say, Madam Chair, and I think this is a 
particular issue for young women and girls because, while women 
make up about 48 percent of the workforce, they only make up 
about 24 percent of the STEM the jobs in this country.
    And so, we really need to encourage them to get away from 
the stereotypes that state girls are not good at science and 
math and let them know they can do anything they want to and we 
need them involved in these subjects because we need their 
skills for the future.
    So again, thank you very much, Chair Landrieu, for holding 
this very important discussion today.
    Chair Landrieu. Thank you so much. As usual, you hit the 
nail on the head because many of these small businesses 
represented here need those women with those skills so that 
they can grow these small businesses represented here and that 
is exactly why we are holding this roundtable. So thank you.
    Senator Pryor.

  OPENING STATEMENT OF HON. MARK L. PRYOR, U.S. SENATOR FROM 
                            ARKANSAS

    Senator Pryor. Madam Chair, I will put an opening statement 
in the record but I just want to say thank you for doing this 
and thank all of you for your leadership on this. It is 
obviously very important. We need to get it right. We need to 
keep America and globally competitive and to stay on that front 
edge of the global economy.
    So, thank you for doing this.
    [The prepared statement of Senator Pryor follows:]
    [GRAPHIC] [TIFF OMITTED] 86153.001
    
    [GRAPHIC] [TIFF OMITTED] 86153.002
    
    Chair Landrieu. Wonderful. As you know, this is very 
informal and my members can jump in and follow up with 
questions. I will get us kicked off; and if you want to respond 
or think of something, just raise your placard here.
    But let me start with the Department of Education, if we 
could, would you briefly explain what the Administration's 
positions and efforts are on this domestic workforce 
enhancement.
    The Administration also, I think, supports opening 
opportunities for foreign workers to come in and has been 
supporting that balance that the Committee has been discussing 
and, of course, the immigration bill that passed out of 
Committee last night. So, the information, members, that we 
gather today will be, I think, helpful for our floor debate 
that will ensue in a few weeks.
    But on the Department of Education, Mr. Uvin, Deputy 
Secretary of Office of Vocational and Adult Education, just 
give us two minutes to kind of kick off this discussion and 
then anybody can jump in to ask questions, et cetera; and then, 
Ms. McAdams, you may want to add something as well.
    Go ahead, Mr. Uvin, explain how this consolidation is going 
to work; and try to give us an understanding of what--the total 
is $3.4 billion--what percentage of that is of the total, you 
know, amount of education spending at all levels, both federal, 
state, and local if you have it and if not you could submit 
that were the record.
    But go ahead.
    Mr. Uvin. Chair Landrieu, thank you.
    Some of the specifics that you are requesting at the end of 
your comment, we will get to you. I do not have these handy. So 
what I would like to do is maybe give a little bit of an 
overview of the STEM reorganization proposal.
    Chair Landrieu. Try to lean into your mic. I am so sorry.
    Mr. Uvin. Sure. No problem.
    Chair Landrieu. I do not know what to do with these 
microphones. I cannot do any better but you have to just lean 
into it or we cannot pick up your voice.
    Mr. Uvin. Is this better?
    Chair Landrieu. Better.
    Mr. Uvin. I will talk a little bit about this comprehensive 
reorganization of STEM education programs to support what we 
have called a cohesive national STEM strategy to increase the 
impact of all the federal investments.
    As I alluded to quickly, our 2014 budget proposal advances 
the idea of consolidating or restructuring more than half of 
the 226 STEM programs and take and redirect funding from 78 of 
these programs to the four priority areas I outlined earlier.
    One is pre-K through 12th grade instruction, undergraduate 
education, graduate fellowships, and then informal education 
activities.
    Chair Landrieu. What was the fourth one? Informal?
    Mr. Uvin. Informal education.
    Chair Landrieu. Informal.
    Mr. Uvin. Yes.
    The Department of Education in this effort would lead the 
improvements in the P through 12th grade instruction area by 
supporting partnerships among school districts and 
universities, museums, federal science agencies and their 
facilities, businesses and other community partners to 
transform teaching and learning.
    The department would help organize many of our Nation's 
school districts into what we have called STEM innovation 
networks that can develop, share, and replicate best practices 
for effective teaching and provide rich and up-to-date content 
knowledge in the STEM areas.
    There is also a focus in this comprehensive plan on 
preparing and recruiting high quality K through 12 STEM 
teachers and to recognize and retain our most talented STEM 
teachers through the creation of what we have called a National 
STEM Master Teacher Corps.
    So, by reorganizing and realigning resources, this proposal 
facilitates greater investment and rigorous evaluation and 
evidence building strategies to meet our critical national 
goals such as increasing the number of undergraduates with a 
STEM degree and broadening--and this is a very important point 
that has been alluded to already--participation by under 
represented groups.
    The reorganization will also make it easier for educators 
and school leaders to navigate the spectrum of STEM education 
resources and identify effective strategies to improve teaching 
and learning.
    Chair Landrieu. Let me stop you there.
    Mr. Uvin. Sure.
    Chair Landrieu. And just to get this discussion going, Mr. 
Goodman, and Ms. Mooney, does anything that you are hearing 
from the Administration make sense to you all about the needs 
of what was going on in Idaho that your company--and I 
understand that your company and Idaho have been promoting STEM 
development in the schools in Idaho--is anything that you just 
heard similar to what you all have been doing?
    Also, Mr. Goodman, you said that a Nation that has kids 
that understand how to program computers will be important. Is 
anything that you are hearing here important to you?
    Let us start with you, Ms. Mooney.
    Ms. Mooney. Yes, thank you, Chair Landrieu.
    Absolutely, everything that I heard are programs that we 
are already involved in or definitely support. We believe that 
pipeline is very necessary so getting the kids young in school, 
getting excited about math and science and then having programs 
that follow them all the way.
    But we definitely believe that the teacher in front of the 
classroom, if they have the content knowledge and the passion 
for math and science, that is very important. And so, with the 
master teacher program, we are aware of that and we have 
several programs that also support those kinds of initiatives.
    Chair Landrieu. Okay. Since I agree with that, let me ask--
is the Administration supporting merit pay for master teachers, 
do you know?
    Ms. McAdams. I would say that merit pay by its definition 
is usually fairly controversial and probably not something we 
are supporting. What we are supporting is relationships with 
districts or regions or even with an individual school where 
the best and brightest teachers can be rewarded for doing 
something extra, not just at their school, which is what they 
are doing right now.
    Great teachers are helping their colleagues all over the 
country right now by being more of a national resource. Taking 
excellent teachers that are in North Carolina working very hard 
at some of the most upcoming STEM schools and STEM magnet 
programs and taking those teachers and having them be more of a 
national resource.
    The support would be maybe in the form of a stipend but it 
could also be in the form of relief time or other opportunities 
to be leaders within their district as a recognized role.
    Chair Landrieu. Okay. And the reason I ask this is because 
my own personal experience with nurses is, I think, 
instructive.
    We have many openings for nurses in Louisiana. We cannot 
fill all the slots that we have, and the reason is because our 
State or Federal Government or combination thereof cannot find 
nursing instructors because the nurses can make $100,000 in a 
hospital doing nursing but they can only make $50,000 
instructing other nurses.
    So I mean, how do you solve this problem?
    Senator Risch. Pay teachers more.
    Chair Landrieu. Well, pay the good teachers more and be 
able to be able to recruit the kind of teachers you need to 
produce the work force you need.
    Now, this is not rocket science. I mean, I am struggling 
with this in our own State. These nursing positions are STEM, 
are they not?
    Ms. McAdams. Yes, of course.
    Chair Landrieu. They pay very well. But we are bringing in 
foreign nurses because we cannot figure out a way to get 
nursing instructors in front of community colleges or 
universities.
    So, I am hoping that the Administration has their eyes all 
over this and is focusing on this. Let me get to you, Doctor, 
and then I will get you Ms. Casey.
    Senator Risch. Madam Chairman, let me get my two cents 
worth in.
    Chair Landrieu. Go right ahead.
    Senator Risch. This stuff is not rocket science. When I 
became governor, we had the same problem in Idaho. I built two 
nursing schools and paid the teachers more and all of the 
sudden the nursing shortage went away. But it is not rocket 
science.
    Chair Landrieu. Well, if everyone was as smart as this 
governor we might not have a problem. I might have to send my 
governor to go talk to him because we are still having a 
problem in Louisiana. That is a great solution.
    Senator Risch. The problem was exactly the same way. When I 
became governor, we had 800 empty positions for nurses; and the 
people who were in our nursing schools were exactly the kind of 
people we were trying to help.
    They were mostly single moms who had really not much of an 
ability to make a living and all of the sudden they got out of 
nursing school and they are making 40 some thousand dollars a 
year and had a job and most were signed up long before they got 
out. But this stuff is not rocket science.
    And I am going to go to the government now. You say you 
have 226 programs dealing with the STEM issue?
    Mr. Uvin. Over 200, yes.
    Ms. McAdams. Yes. The current funding is over 220 programs.
    Chair Landrieu. And they are consolidating it down to four.
    Ms. McAdams. No. Consolidating it to approximately half of 
that with four focus areas with three lead agencies--the 
Department of Education, the NSF, and the Smithsonian 
Institution.
    Senator Risch. How about one program with a very smart 
person heading that program? That is what we do in the private 
sector.
    Yet, you know, with all due respect and I mean this 
sincerely with all due respect, as I said in my opening 
statement, this is not a new problem.
    The government, the Federal Government and the State 
governments have been poking at this. I spent almost 30 years 
in our State senate and time as governor and lieutenant 
governor, and it does not seem, I would like to see these that 
this takes. Has somebody got statistics on the number of 
graduates with STEM degrees, because the perception is we are 
not making much progress in this regard? Encourage me. Give me 
some numbers.
    Chair Landrieu. Does anybody have those numbers, and if 
not, if you would submit it and I am sorry, Doctor, you had 
your card up, and then I will get to you, Camsie.
    Ms. Ferrini-Mundy. Thank you. I was just going to pick up 
from my colleagues from the Department of Education and talk 
about the National Science Foundation's piece of this 
reorganization, where our focus would be on two other really 
important steps in the pathway to working in business and 
industry, and those would be the undergraduates and graduate 
preparation and just a couple of quick notes.
    At the undergraduate level, the attrition rate for students 
who start college thinking that they would like to pursue STEM 
and then who finish is very poor and it varies by field and it 
varies by gender and it varies by race and ethnicity, and we 
can get you specific numbers. But we are losing people who come 
to college thinking they are ready to pursue STEM.
    So, a big focus in NSF's leadership within this proposed 
reorganization will be at the undergraduate level. How can we 
ensure that the instruction that students are getting in STEM 
is of the highest quality? How can we assure that they are 
getting real life experiences early on in their experience as 
undergraduates?
    And then at the graduate level, the government offers a 
number of fellowships and traineeships across agencies and what 
we understand from the data--and we can get you some 
specifics--is that although students completing PhD's are 
perhaps well prepared for academia, their preparation for other 
places of work may not be as strong.
    And so, our hopes, in doing some revisions of our graduate 
research fellowship program, are to increase learning 
opportunities outside of the academic pathways, such as 
opportunities in labs and in companies.
    Chair Landrieu. Since I am a numbers person, like my 
Ranking Member, and our other members would be interested, if 
you could submit for the record before this Committee is 
closed, give us like a 10-year look-back and maybe a five-year 
projection of these graduate students and the attrition, you 
know, success or failure, rate broken down, I mean, over all 
and then broken down by some various categories that would make 
sense for us, because my general sense of it, and I could be 
wrong, governor, is that, you know, we are making progress but 
we are just not making enough progress.
    And so, I think part of the goal of this Congress should be 
not just immigration reform--not really focusing on this skills 
gap, but, particularly for this Committee, how the skills gap 
relates to small business.
    I mean, the opportunity is there, especially when you take 
into consideration the statistic I gave out before you all came 
in, I think 62 percent of small businesses are under hiring. 
That means they want to hire more, have the money to hire more, 
but cannot find the qualified people that they need.
    So, you know, this is really an economic issue as we all 
know.
    Senator Risch. Before we move on, can I follow up?
    Doctor, that is really interesting, the comment that you 
made that there is a bottleneck there at the bachelor level 
where they come in thinking they are going to pursue STEM, and 
then go out of it.
    What is your sense? Why do they go out of it? Do they go 
out of it because it is too tough, that they are not prepared, 
or that they had any romantic idea that they were going to be 
rocket scientists and they found out it was not what they 
thought? What is the reason for this switch in pursuit?
    Ms. Ferrini-Mundy. Thank you for the question. Probably all 
of the above but what the data show us in particular is a set 
of concerns about instruction, that is to say, they came 
excited but then they are not sure when they get into some 
introductory courses about what the real world applications 
might look like, whether they will really have a chance to use 
what they know.
    Senator Risch. But that is true in most pursuits.
    Ms. Ferrini-Mundy. Right.
    Senator Risch. I mean, get into college and you take a 101 
course. It is hard. You know what I mean.
    Ms. Ferrini-Mundy. Right, and the other thing that we think 
may be a issue is preparation, particularly in mathematics, 
because even when students come with a pretty strong background 
in K through 12, the jump to college-level introductory 
mathematics, particularly the math needed for the STEM careers, 
is sometimes a challenge.
    So, we have a number of efforts to try to focus on getting 
this math gap fixed.
    Senator Risch. Interesting. Thank you.
    Chair Landrieu. Yes. So, they might have come into college 
with a 3.5 in math but the problem is that the math level that 
they took in high school has not adequately prepared them for 
the actual math that has to be done.
    Now, you would catch that in an ACT test or you would catch 
it at an SAT. But you would not normally catch it by just a 
grade point. And, many of our colleges have open enrollment.
    But go ahead, doctor, and then I will get you, Camsie.
    Dr. Kolvoord. Senator Landrieu, actually you do not catch 
it in the SAT score. What we are finding is they are not able 
to apply the mathematics that they learned. They can perform 
quite well on the SAT and then they get into an introductory 
engineering course or they get into another introductory course 
and they stumble because they are not literate in the 
mathematics.
    I think that is a major challenge. My experience is in line 
with Dr. Ferrini-Mundy's.
    I would add one more thing. Particularly in the STEM areas, 
students have to slog a long time before you get to the 
interesting stuff.
    The programs that we have designed at JMU try to get 
students to applications much earlier so they can understand 
and be motivated to work through the basic materials so that 
they can actually do the work that interests them in the first 
place. The stuff that Newton did 400 years ago is not quite so 
interesting to students these days.
    [Laughter.]
    Chair Landrieu. No wonder I did not move into that field.
    Mr. Goodman, go ahead and then I will come back.
    Mr. Goodman. Thank you very much.
    Chair Landrieu. This is very interesting. I want to follow 
up on the SAT but go ahead.
    Mr. Goodman. Yes, I wanted to hit on that one as well. 
Thank you.
    I do have some numbers that there are 40,000 graduates a 
year in STEM, and right now the jobs created in STEM is 120,000 
a year. My understanding also, and I do not know these numbers 
exactly, is that the number of STEM graduates has gone down by 
.8 percent since 2000 and the number of history graduates has 
gone up by three percent since 2000.
    I think the comment that was made by the doctor in terms of 
making it fun, we treat technology like a career choice, not a 
common denominator.
    So, we teach biology. We teach science. We teach math. But 
we do not teach them as a means to an end. We teach them as a 
means to get a grade.
    And, I think somebody made a suggestion in one of our 
meetings yesterday that, if there was a class on how to build 
an app for money in high school, that kids would see that it is 
a means to an end and it would not be this open-ended Newton 
experience. I mean, the programming languages we teach in 
college are 40 years old. That would say if I wanted to be a 
writer, well, why do you not learn Latin. It is about taking 
advantage of what we have.
    So thank you.
    Chair Landrieu. Excellent comments Mr. Goodman. I really 
appreciate that and I sure hope the Department of Education is 
listening because this is such a fundamental flaw or 
shortcoming I should say--some people may say flaw--shortcoming 
in our education system. We have got to step this up and be 
teaching kids where their interest is, their excitement to fill 
the skills gap.
    Ms. Casey, I will get to you and then I will run this line. 
Go ahead.
    Ms. McAdams. It is Camsie.
    Chair Landrieu. Sorry.
    Ms. McAdams. Thank you.
    I wanted to talk about two or three things. One is, Ranking 
Member Risch, you talked about one really great program and I 
would say that my colleagues around the table, Ms. Wang, Ms. 
Taylor, Ms. Belsky and Ms. Mooney, would probably say that one 
program does not really cut it. There are different niches 
within IT, for example, or within software development.
    And that even within nursing, there is the pathway of being 
a neonatal nurse versus a surgery nurse versus a home health 
care aide.
    I think that we need to be really careful to make sure that 
we are letting regional economies determine what is the best 
for what is in their neighborhood.
    So, the program, the STEM innovation networks, is designed 
to let folks like the people in Boise come together and say, 
what opportunities do we have right here; the people in 
Louisiana to say, we have a real shortage in nursing so we are 
going to design a whole K through 12 pipeline pathway program 
much like Ms. Mooney was speaking about, to really start in the 
very early grades with these informal activities, these 
informal exposures where you bring STEM professionals into the 
classroom so that kids can see different opportunities for 
careers and then follow that up all the way into the high 
school with a great opportunity to do advanced coursework even 
before they get to the college campus so that they do not 
necessarily hit the ground at a deficit and can take advantage 
of dual credit and dual enrollment and advanced placement 
coursework.
    These are the kinds of things that are built into the 
design of the STEM innovation network, and these are the kinds 
of things I think will generate both interest and excitement.
    Being a neonatal nurse is a very serious STEM occupation. I 
met a young woman in Maine who wanted to be a neonatal nurse 
but she did not know how to find a derivative. She did not know 
how to do proportional thinking in her head.
    I thought, well, you have a long way to go. So, we have to 
do a better job from the beginning of inspiring the interest 
and then all the way to the end with academically rigorous and 
relevant coursework.
    To the computer science point, I think this is something 
that also these networks could do. They could emphasize, if you 
are in a tech corridor, the IT pathway. There are programming 
opportunities that can be done in elementary schools, not just 
in high school.
    We can start very early on, and some of these resources are 
free. Alice and Scratch, these are resources that are out there 
that have been developed through grants that are open resources 
available to everyone.
    The last thing I want to point out is, to clarify, to your 
first question that you asked about merit pay, is that the 
department supports performance pay and there are efforts to 
link teacher performance to student outcomes, whether we 
measure those through multiple means, but we do support the 
idea of having teachers being paid for performance that is 
linked to better outcomes for students, which is really what 
this is all about.
    Chair Landrieu. I appreciate your clarifying.
    Ms. Belsky, go ahead and comment; and then if anyone knows 
a region where what Ms. McAdams just talked about, a region or 
an example where, because, as the governor said and senator, my 
Ranking Member, this has been going on a long time and there 
are some states and regions that might be doing a little bit 
better on this and closing that gap. We would like to put that 
on the table if anyone knows.
    But go ahead, Ms. Belsky.
    Ms. Belsky. Sure. So, it is tremendous to hear more about 
the pipeline efforts that are going--that are taking place--now 
that the government is proposing.
    One thing this brings to mind, though, is, you know, what 
are we going to do now for startups that are building their 
businesses today.
    I think right now in particular we are in a moment where 
startups are sexier and have grabbed the attention of popular 
consciousness in a way that they have not before. What we need 
is not only to address the long-term pipeline but figure out 
how to get employees to our companies today.
    I can tell you at Kaltura the company that I run today, we 
end up hiring, we have about 10 percent of our positions which 
are continuously open despite the fact that we have taken 
expensive venture capital funding, are paying interest on that, 
and we cannot fill them.
    So, what we have done is we have hired people, particularly 
women, who do not have technical experience. We send them to 
courses. We set them up with mentors. Over time many of these 
folks have turned out to be very, very productive employees.
    The thing is we need to be able to scale this and I am sure 
some of my other colleagues here would need similar solutions 
as well. So, I guess one question I am putting forth, we have 
heard from the dean over here that there are interesting 
workforce partnership programs but what else is out there that 
we could potentially scale to address in the pipeline.
    Chair Landrieu. An excellent point. And if you would put 
your placard down so we can see you.
    But I would like to follow up on this point because here at 
the table we have sort of the Administration and Education and 
Labor, et cetera, what they are doing. But an interesting 
question that Leah raises is her business is doing something 
now about the skills gap.
    My question is: As a small business, how do you line up to 
get the H-1B visas that are going to be available for foreign 
workers? That is one question.
    Is it first come first serve in the bill? Is there a set 
aside for small businesses in America? If not, why not or 
should there be, et cetera, et cetera?
    And then for domestic, are we doing anything in your 
proposals that would help a business like Ms. Belsky--either 
through a tax credit or anything that might be helpful while 
they are doing their own training?
    Instead of using schools and universities, this business, 
like many businesses in my State, do their own training. And 
they are so desperate to find the kind of workers they need.
    Are we doing a thing to help them? Does anybody know? Does 
anybody know if the government is doing anything? Is it just 
strictly your company?
    Ms. Belsky. So, I do not know of any other government 
programs. We are certainly not doing this in partnership. We 
are interacting with colleagues in the startup community to 
take these initiatives together but that is all, to my 
knowledge.
    Chair Landrieu. Ms. Fiala.
    Ms. Fiala. A couple of things that I can talk about, and I 
will save the discussion on the H-1B technical skill grants for 
a second but that is a piece of this.
    When you talked about, Senator, retraining, that is near 
and dear to our heart as well because there are a lot of middle 
skill jobs in the STEM area and other areas that, perhaps, Ms. 
Belsky and others out there, small employers, could take 
advantage of.
    I mean, we know that much of the growth today is being done 
by small employers and is very difficult to connect, and you 
just gave the story.
    We have a network of 2700 American jobs centers around the 
country who can connect employers to various skill training 
programs. I was in a conversation a couple of days ago with a 
group that provides employers with opportunities through the 
workforce system to customize training and to be able to hire 
employees and to be able to customize the training for them so 
they can work and learn at the same time.
    In fact, the H-1B technical skill training grants that we 
can talk about that are funded by a part of the fees that 
employers pay to bring in temporary workers that----
    Chair Landrieu. So, you are saying a business like Ms. 
Belsky's could get one of those grants?
    Ms. Fiala. It is not a grant. They could actually have, 
converse with the local workforce system in New York and talk 
about their skill needs and work out either a customized 
training grant, and employers have to put skin in the game.
    Chair Landrieu. I think she has a lot of skin in the game.
    Ms. Fiala. She has a lot of skin in the game. So, I think 
it is a great opportunity for her and we would be more than 
happy to connect her and others interested in that at the local 
level.
    Chair Landrieu. I would like to make sure that this really 
works for small businesses that are so busy doing their 
business that they do not have a lot of time, of course, to 
figure out all of these government programs. And, I think that 
the simpler we can make this for customizing training because 
sort of the way I am looking at it is all hands on deck.
    I mean, we have a real problem here, and it has to be 
solved by everybody doing everything we can.
    Dr. Taylor, go ahead. And then I will get you Ms. 
Moneypenny.
    Ms. Taylor. I wanted to the point about the applications, 
the math and science. I am a first-generation college grad. 
Neither of my parents attended college and I have a PhD in 
mathematics.
    Now, some of the solutions that I am hearing sound a little 
bit traditional and one-dimensional. What I am thinking is that 
we get outside of the box, make it a little bit more multi-
dimensional; and I think the STEM students need to be more 
immersed into STEM activities beyond just training in school.
    And, let me make this point. My husband has a PhD in 
physics. He is African-American, went to an HBCU as well. So, 
we are bit of an anomaly. I will admit.
    However, our daughters live and breathe math and physics. 
They do not realize the advanced level but we bring it in to 
the home. It is a part of our culture. When I go to PTA, I 
participate in some of the classroom activities. The kids learn 
it. They do not realize it because I do not present it as 
Newton's theory or Einstein's philosophy.
    So, there needs to be a different presentation to help 
demystify. Sometimes in the past, it had been where being a 
mathematician was a club, and it is definitely an honor, but it 
is not unattainable and it is not only for a particular group 
of individuals.
    And so, when I go out, I have T-shirts that say, I love 
math or I am a mathematician; and I cannot tell you how many 
young women have come up to me and say, are you a 
mathematician? And, they say it very softly.
    [Laughter.]
    And I say, yes; and I am at the grocery store or I am at a 
5K. I am in the community, and they see me in my everydayness, 
not looking like Einstein.
    And, having the platform to speak about what it is that I 
do and the applications, and I also chose NC State--this is 
another very important point--because they had a different 
route for me to take. I did not want to become a professor 
right away.
    Ultimately, I would like to be in the classroom but I 
wanted to apply my thinking, my skill set; and NC State had a 
program that was already in place that put the students out 
into the community in working with NIH in Research Triangle 
Park and all the other small firms that were in the area.
    So, if we can re-create that, I think that it would kind of 
change the culture and be the recitation of STEM topics.
    Chair Landrieu. Thank you, Dr. Taylor. Excellent point.
    Ms. Wang.
    Ms. Wang. Thank you, Senator. I actually wanted to tackle 
that. What could be done now from a small business perspective. 
I grew up in China.
    Chair Landrieu. Is your button pressed?
    Ms. Wang. I am sorry. I am an immigrant from China. I 
started learning math early and it was fun for me to learn. I 
took algebra at fourth-grade, and I programmed a computer when 
I was 18--13 I am sorry--games; and I had internship jobs 
placed via my school all summer, multiple summers. So, it was 
fun.
    I think the culture really made a difference. But the other 
point I want to make, as a government contractor, we are 
providing technology solutions to the Department of Defense 
intelligence community. We simply cannot find enough cleared 
engineers today.
    Chair Landrieu. Let us talk about your word ``cleared.'' 
You have used this several times before. Are you talking about 
a security clearance?
    Ms. Wang. Yes, ma'am. Security cleared, security clearance.
    Chair Landrieu. And what is holding up the security 
clearance? Is it a backlog?
    Ms. Wang. It is a huge backlog, and last year we had a 
contract where we won with an intelligence agency. We could not 
hire people from outside of that agency because they require a 
unique, separate clearance level that they do not accept any 
other agencies same level.
    So, it was a very idiosyncratic process and they simply did 
not accept anybody else's package. So, there was no pool. The 
only pool of potential employees was people already employed at 
that agency.
    Chair Landrieu. Okay. Can you tell us what agency that was?
    Senator Risch. I do not think she can.
    Chair Landrieu. Okay. All right.
    [Laughter.]
    No, that is true. All right. The staff will look into that 
and figure out if there is any way we can open that up but you 
have said that three times now, so I wanted to be responsive. 
You just cannot find enough cleared engineers.
    Ms. Wang. Engineer, yes. I think that process could be 
really improved.
    Chair Landrieu. Okay. Ms. Moneypenny.
    Ms. Moneypenny. Thank you. So, a couple of comments. Since 
we keep talking about rocket scientists, I really have one. I 
am an astrophysicist by background. So, it is not always 
helpful actually to solving all the problems but rocket science 
is a good way to think about it.
    There are a couple of issues for us. You were talking a 
little bit about the caps and the H-1B visas. There is not a 
specific provision for small business to hire them so basically 
you are rushing just like everybody else, and if you do not 
have a staff of attorneys which obviously we do not as a small 
business----
    Chair Landrieu. I want to really underscore this. I do not 
know if it is clear to everyone that in the current bill as 
drafted it is a first-come first-serve.
    Ms. Moneypenny. That is right and that is the way it has 
always been.
    Chair Landrieu. And, is there any alliance of small 
business owners or startups who have a better idea of how that 
should be so small businesses in America have an opportunity to 
get some of the----
    Ms. Moneypenny. Not that I am aware of. We have had to 
learn how to do the process ourselves completely, just because 
it is very expensive obviously hiring resources that know about 
these things and then obviously being able to describe the 
kinds of jobs that we are looking for which are very specific 
technologies or skill sets that we are trying to get.
    So, those are very difficult and it puts a lot of burden on 
us frankly. It is not just fees; it is burden.
    Senator Risch. You know, on a short-term basis, what she is 
talking about is really, really critical to this country.
    Ms. Moneypenny. Yes.
    Senator Risch. We can talk about the long-term pipeline but 
for people that need them, that statistic that he gave where 
there are 120,000 jobs created and we are graduating 40,000.
    Ms. Moneypenny. Right.
    Senator Risch. You know, I just found a way to employ 
another almost 100,000 people.
    Ms. Moneypenny. That is right.
    Chair Landrieu. I know but the problem is what you have 
correctly identified as the long-term pipeline. It is important 
for us to get this solved.
    The short-term is need but the small businesses sitting at 
his table will not get any of those pieces. They will not get 
any so it is not going to be solved. I mean under the current 
draft of the bill, I doubt that any small business represented 
here is going to get any of those visas because they are all 
going to be snapped up by big companies that are already 
scheduled to do it, already know the process, and already have 
the resources to do it.
    So, if our Committee does not come up with some 
suggestions, I am not sure what is going to happen. Go ahead 
doctor, Dr. Kolvoord.
    Dr. Kolvoord. Thank you, Senator Landrieu.
    I wanted to loop back to a short-term solution and give a 
more concrete example. I will be very brief.
    We are working at JMU with a different model. Camsie 
McAdams talked about dual enrollment and dual enrollment is 
where we help students in high school earn college credit but 
it has been very traditional and in very typical courses.
    We have taken a very different tack on dual enrollment and 
we have partnered with schools in Virginia to help students 
learn about geospatial technologies, such as GPS, geographic 
information systems, and remote sensing. And, when I leave 
here, I will be headed back to Loudoun County to see students 
present their end of year presentations.
    This is a very different kind of problem solving that 
students are doing particularly in this high-stakes testing 
regime. So, we are seeing students actually getting engaged 
with technology. One student actually learned Python Scripting 
on his own to be able to do his project.
    They are then coming out of high school ready to engage in 
college in a very different way. We have not received a single 
federal dollar to do this.
    We were able to create this program because there is a 
tuition flow from the dual enrollment. It would be very easy 
for universities across the country to begin this program in a 
variety of different technology areas, and I think it might be 
something that could start this flow of people.
    It is perhaps, to follow Dr. Taylor's analogy, outside of 
the box just a little bit. We have been doing it for eight 
years, so we have some experience.
    Chair Landrieu. I am going to ask each of you for this 
Committee record to submit literally a one-page document about 
your best, fastest idea to solve this problem. Okay, any one-
pager to the Committee before the close of the record and, Bob, 
if you would put that on your list, that would be terrific.
    Dr. Mundy.
    Ms. Ferrini-Mundy. Thank you. I just wanted to circle back 
also to the questions about the immediate needs of small 
businesses and to reiterate the importance of partnership.
    And, at least in working with the National Science 
Foundation, I will call your attention to four different 
programs and can give you more details later.
    It would require partnering with some local university or 
community college but then there could be resources that would 
be useful after the merit review process.
    One I mentioned earlier, the advanced technological 
education program. The second is one of our H-1B visa receipt-
funded programs. It is called ITEST, Innovative Technology 
Experiences for Teachers and Students or for students and 
teachers, I guess.
    That is a program. It is part of what we call informal 
science education outside of school. It can involve summer 
opportunities, summer learning internships in companies and so 
forth as a way to begin to build the pipeline.
    And then, CREST which is Centers of Research Excellence in 
Science and Technology. This is a program for minority serving 
institutions but there is an option for partnering with small 
business and local industry in that program.
    Then finally, we have a program called Scholarships for 
Service to your point, which is about providing dollars to 
universities and community colleges actually to prepare 
students who can work in the cyber security workforce within 
government.
    So, what I want to do is go back and check on how the 
restrictions are relative to working with government 
contractors. But in any case, there is a set of students coming 
out of that program who are receiving scholarships and who are 
ready to meet security clearances.
    Chair Landrieu. Go ahead.
    Mr. Uvin. I just wanted to add an important resource, I 
think, for small businesses and local communities to be aware 
of, and it is our $1.1 billion investment in career and 
technical education.
    The money goes to States because States know better than us 
at the Federal level what to do with the money, and they can 
allocate it to school districts and post secondary education 
institutions to provide more technically oriented forms of 
education.
    Many of the States right now have encouraged local 
communities to create strong partnerships with small businesses 
and large businesses and have moved into the STEM areas.
    There are some exciting examples about emerging early 
college high schools that are focused on the STEM fields that 
deliver not only a high school credential to students but also 
an associate degree and a series of industry certifications and 
a job.
    So, I would be happy----
    Chair Landrieu. Is this the Carl Perkins block grants?
    Mr. Uvin. Yes. People are now----
    Chair Landrieu. $1.4 billion that the Federal Government 
sends to----
    Mr. Uvin. $1.1 billion right now.
    Chair Landrieu. $1.1 billion, the Office of Vocational and 
Adult Education.
    It would be very interesting for this record if you would 
submit what you think are the top three to five programs in the 
country, because I find this very hit or miss in my experience.
    I think some states do a good job with spending this money, 
other states do not. You know, if it was being spent really 
well over many years because we have been getting it out, we 
would not have the skills gap that we are talking about.
    So, you have to acknowledge the reason we have a skills 
gap, I mean, I think you have to accept that we have not been 
spending our resources and our allocations; and our education 
system is failing to produce the domestic workforce.
    So, you know, moving around the edges is going to help but 
it is not really going to be transformative. What has to 
happen, I think, and we are not the Education Committee, but 
for small businesses that need workers I think we, our 
Committee, has to advocate for a more transformational approach 
which is what I am thinking I am hearing.
    So, if you could give us the three or four best examples of 
the states that are using part of this $1.1 billion, I mean, 
really hard data to show excellence, I think it might help.
    All right. Go ahead.
    Senator Risch. Madam Chairman, Mr. Uvin, when you go back, 
you said something we do not hear in Washington, D.C., very 
often. Put it as the opening statement in your policy manual, 
the states know how to spend this money better than the Federal 
Government does.
    There are a few of us here that believe that, and that is 
absolutely critical to us. The complaint I get most of all at 
home is the strings that the Federal Government attaches 
whenever money comes, particularly from the Department of 
Education. That has been very controversial.
    Mr. Uvin. Just a quick response if I may, Chair Landrieu. 
Last year, we launched our blueprint for transforming career 
and technical education in this country, and it is exactly to 
address some of the concerns that you have raised in your 
comment.
    One of the things we are advancing is a greater 
responsiveness to what the real needs of businesses are, a 
closer collaboration with our colleagues in workforce and 
economic development at the state level and a stronger role for 
states to work with our educational institutions so that they 
understand where the real business needs are, where the 
emerging sectors are.
    We would be happy to share that document with all the 
members present here.
    Senator Risch. I am glad you realize that. We have realized 
that in Idaho a long time ago. We have between the State and 
our businesses in Idaho we have a strong, strong working 
partnership.
    In fact, we pride ourselves at asking them to come in and 
say, what do you need? As a result of that, I can give you all 
kinds of examples. Particularly our technical colleges can 
respond quickly to a request from small businesses, medium-size 
businesses, even big businesses to provide a program that 
trains people for them.
    So, we have known this for a long, long time and at least 
in Idaho we are very nimble at that and very good at it. I am 
glad that realization has come to Washington, D.C.
    Chair Landrieu. Ms. McAdams and Ms. Fiala.
    Ms. McAdams. Thank you. I just wanted to highlight that 
from the members of this Committee there are several states 
that are part of a coalition called the STEMx and these are an 
organization of states that have taken a statewide and state-
focused approach towards STEM learning. I think you asked 
earlier, Chair Landrieu, for examples of regions where this is 
going well so I would say we could look to members----
    Chair Landrieu. What are some of those states?
    Ms. McAdams. I can read them off. So, Washington State, 
North Carolina, Idaho, and Kentucky are all part of the STEMx, 
plus Michigan, Maryland, Massachusetts, and Florida all have 
significant efforts at the state level.
    In fact, I just spoke with the people from Michigan STEM. 
They are having a meeting in two weeks in Detroit around 
business opportunities, called Michigan STEM and I provided an 
opening statement for them on how our proposals would help 
support what they are doing in Detroit to try and revitalize 
the workforce there.
    I also looked to the states where I could not find a 
statewide effort; so, for example, in Louisiana, where in 
Jefferson Parish there is the Patrick Taylor Science and 
Technology Academy, which was formed as a partnership between 
local businesses and the school.
    But I looked in their course catalog and they are not 
offering a single computer science class. So I think that there 
is an opportunity for us to take some measures to inspire 
students in the nontraditional fields.
    And, I think Dr. Taylor's point was very, very important 
about the idea of informal learning and engagement because 
there is not always a path for teaching a course on how to 
create apps for money within the regular courses needed for 
graduation.
    But that could easily go along with what Senator Shaheen 
talked about with First Robotics, in the after-school space, in 
the summer time, on the weekends, because the rocketry 
challenges and the design challenges are building those skills.
    And, just last week they had the ``Rockets on the Hill'' 
event. I spoke to that group and I talked about how the 
partnership model is so incredibly important because what 
happens is professionals like Dr. Taylor and Ms. Moneypenny and 
Mr. Goodman come in and help support the teachers and maybe do 
not have those rocketry design skills and I think that is a way 
to also encourage meaningful partnerships.
    So, I am happy to connect with folks about the work of 
STEMx but STEMx is only one opportunity.
    Chair Landrieu. Well, that is wonderful; and if you would 
send that information to the Committee because what we are 
hearing is that some states are doing a really good job and 
some states are not.
    Not every state does a great job and not every state's 
programs are better than the Federal Government. What you are 
saying is some are and some are not, and I would tend to agree 
with that. Ms. Moneypenny.
    Ms. Moneypenny. Thank you. A couple of points I want to 
raise. Small technology firms are really like the bellwether 
for the industry. So, I would really want to encourage, when we 
were talking about partnering with business, that there are 
specific provisions that the educational institutions have to 
talk to small businesses because otherwise the temptation in 
those programs is basically to go out to the largest employers 
in the area because that is what people usually do. That is the 
way they usually respond, right. But no, specifically go out 
and canvass what small businesses are looking for.
    And then, the other point I want to talk about is this 
thinking about partnering with other large companies that have 
certification sort of programs. So, it is the Microsofts, the 
IBMs. Those certifications mean something in the industry.
    A lot of times small businesses are already serving large 
companies, and so getting enterprise sort of certifications, 
serving enterprise technologies, I am sure you guys are working 
with them. So, having those certification programs maybe as 
part of some of those educational things that we are teaching 
and that actually helps us to have those people who are 
informed on the workforce side. They have certifications.
    So, even if they do not graduate, they still have something 
that helps them become a productive member of the workforce and 
that has value in the workforce from an engineering standpoint.
    Chair Landrieu. Thank you. Our Committee has reached out to 
Microsoft and to some of these larger companies because of 
this. We see them as partners just like the way I see as Chair, 
the Federal Government as a partner and we would like to make 
it a better partner, a more efficient partner.
    I also recognize some of these very large technology 
companies can be part of the solution of helping us to reach 
small businesses, et cetera, et cetera. So, thank you.
    Senator Shaheen and then I will get you, Ms. Mooney.
    Senator Shaheen. Thank you, Senator Landrieu, and I am 
sorry. Since I had to go away for a little bit, I may have 
missed some of the discussion. So, I am not sure if you have 
gotten into the immigration legislation that is being discussed 
or not.
    But it is my understanding that it addresses STEM in a 
couple of ways. One is by increasing the number of H-1B visas 
which has been an issue for a number of high-tech businesses in 
my State of New Hampshire.
    But it also sets up a fund to help support STEM workers in 
various ways and STEM education. And, I wonder if there are any 
small business people on the panel who have had any experiences 
that you think would be helpful as you are looking at either 
the H-1B visa program or as you think about a STEM fund and how 
that might be used.
    And then, I had a specific question also for Dr. Ferrini-
Mundy, who I understand your brother is from New Hampshire. So, 
that is very nice. I know him very well. He used to be the 
mayor of Portsmouth. So, it is very nice to have you here.
    Can you talk about what the Science Foundation is currently 
doing on STEM education and how the STEM fund that is being 
talked about in the immigration bill might be helpful to those 
efforts?
    Chair Landrieu. Excellent questions. Thank you. Who wants 
to respond? What anybody? Go ahead, Mr. Goodman.
    Mr. Goodman. I wanted to speak specifically to the visa 
process for a small company. To quote my CEO, he was very 
excited to talk to the IRS after he got off the phone with the 
immigration office.
    [Laughter.]
    Chair Landrieu. That is not very good. But go ahead.
    Mr. Goodman. It cost us, we have done a total of four. One 
of them was easy but across the board has cost us somewhere 
between $25- and $35,000 with special counsel, educating 
ourselves, making mistakes.
    Senator Shaheen. For each one?
    Mr. Goodman. For each one.
    Senator Shaheen. Wow.
    Mr. Goodman. 40 to 80 hours of man time.
    Chair Landrieu. Right.
    Mr. Goodman. Now, contrast that to paying $40- or $50,000 
to a recruiter and not having to deal with any of those 
complexities. We have actually resolved not to go forward with 
any more H-1Bs to solve our problem.
    And, in mitigating, I actually go out to lunch with one key 
programmer that we cannot find a parallel to every two weeks 
and fix anything that upsets him because we cannot afford to 
lose him.
    Senator Shaheen. Wow.
    Chair Landrieu. Of all of what I have heard this morning, 
Senator Shaheen and Senators, this concerns me the most. I 
mean, we are getting ready to pass, potentially pass an 
immigration bill with an H-1B visa program that is probably not 
going to work for any small business in the country.
    I mean, this is a very interesting, I mean, I do not know. 
Is this what I am hearing? Now, I say ``any''. That is broad 
but let us just clarify. For businesses under 50 to 100 people, 
because they are not going to be able to navigate, and you, Mr. 
Goodman, hire how many people?
    Mr. Goodman. We have over 35 people now.
    Chair Landrieu. Thirty-five people.
    So, if it costs them that much money, and from what I 
understand, Senator Shaheen, there is no quota set aside for 
small business. There is no special express lane for small 
business.
    We may want to think about creating that before this bill 
gets out of here. I do not know the pros and cons but we are 
exploring that today.
    But what I am pretty clear about is none of those H-1B 
visas are going to get in the hands of a business got 50, or 
very few, will get in the hands of businesses that are 50 or 
more.
    Yet, that is where all the patents rest, not all. That is 
where the majority of patents rest. That is where most of the 
innovation rests and that is where most of the new job creation 
is.
    So, this is a very interesting, you know, line of thinking 
and discussion we have going on here. Did you get your second 
question answered?
    Senator Shaheen. No.
    Chair Landrieu. About the National Science Foundation.
    Chair Landrieu. The National Science Foundation. What are 
you all doing?
    Ms. Ferrini-Mundy. Of course, thanks for the question, 
Senator Shaheen.
    The National Science Foundation has been engaged in STEM 
education since its founding. So, we have 60 plus years of 
experience there.
    Our budget spent on STEM education is about $1.2 billion, 
all spent through competitive merit-reviewed grants, the 
majority of that in the directorate that I lead, Education and 
Human Resources.
    We fund in the areas of STEM learning and learning 
environments. So, we are interested in projects and proposals 
that will improve STEM learning and that will provide us with 
the evidence for how to do that well so that we can then become 
a place that provides these well-tested models for use broadly 
across the country and to scale, in particular in partnership 
with the Department of Education and other agencies.
    We also fund and have had a long tradition of funding in 
the area of broadening participation and improving the 
engagement of groups that have traditionally been 
underrepresented in STEM.
    Then, we are increasingly engaged in sharpening our focus 
on preparing the STEM workforce. We fund, as we say, pre-K 
through gray kinds of projects so for the general public, for 
schools, for inside and out of school in all of these STEM 
fields; and we do this through about 30 separate programs.
    Chair Landrieu. Could I add something though? When you said 
that, Senator, one of the issues, and this comes really from 
small businesses that need to speak up.
    Ms. Mooney, I will get to you in a minute.
    We have to be careful about what we are measuring. If we 
are measuring just who graduates with what degree, you know, we 
may be spending a lot of money getting just like you said, Ms. 
Taylor or Ms. Wang, people with degrees.
    But having a degree and having skills, the right skills, 
are two different things. And, I think that is what our small 
businesses are telling us is that you can have all the 
chemistry majors you want, all the, you know, math majors you 
want; but they have got to be math majors with the skills that 
our entrepreneurs in America need today; and that is a question 
we should constantly ask ourselves.
    Ms. Mooney.
    Ms. Mooney. Thank you. I just wanted to let members of the 
Committee and the rest of the roundtable participants know of a 
study that the Micron Foundation is engaged in with the 
University of Idaho, and we are talking about the factors that 
influence family, a student's ability to go into a STEM career 
and excel at a STEM career. It is a longitudinal study.
    There is data out there if you just Google University of 
Idaho Micron STEM Study, and it provides a little bit of 
information on what those factors are and perhaps a multi-
partnership approach to community, parent, teachers, and 
students to get them excited about STEM education.
    Senator Shaheen. Can I just follow up on that?
    Chair Landrieu. Go right ahead. Yes.
    Senator Shaheen. One of the things that I think is so 
interesting about some of the hands on programs that kids can 
participate in is that some of the data that I have seen shows 
that they have a higher percentage of actually going into STEM 
fields because they have a chance to work with mentors. They 
have a chance to see what the opportunities are in those fields 
and they have a higher graduation rate in those fields and then 
they get out and they actually go to work in STEM fields.
    I just wondered if any of you have, if you are far enough 
in your study to see if that is what the data you are seeing is 
showing or if anybody else has any experience with that kind of 
data that shows that that really does make a difference?
    Chair Landrieu. Could you respond, Ms. Mooney, do you know?
    Ms. Mooney. We are in preliminary findings but it does seem 
that project-based learning, a teacher with significant content 
knowledge, a family that supports math and talks positively 
about it instead of saying things like, I was not good at math, 
you will never need this type of thing are a factor.
    Chair Landrieu. Teachers that have had experience in the 
private sector, for a math teacher to come right out of school 
and just be in the classroom teaching math as opposed to being 
in a company applying math and then going into teaching which 
gets back, Governor, to, and these governors sitting on either 
side, you know, makes me be even a stronger advocate for 
alternative certification for teachers, to try to get people in 
front of students that have had real world experience either 
building a small business as an engineer themselves or as a 
mathematician themselves or working in a small or large company 
and then going into the classroom and explaining how these 
subjects that are very important and exciting and it was 
definitely what the country needs.
    So, this is a real challenge before our country. Doctor, 
and we are going to end in five minutes. I am going to get you 
and then we are going to do wrap-ups.
    Dr. Kolvoord. So, very briefly to two points the first is 
to Senator Shaheen's. Dr. Olga Pierrakos, who is a faculty 
member in our engineering program and supported by the National 
Science Foundation, has done affirmative research along this 
line.
    And, she is finding that those students that have those 
hands-on experiences are starting to more identify themselves 
at a younger age as engineers or scientists and it seems to 
carry forward to college.
    The other point I would make is an amen to Ms. Moneypenny 
about the connection with small businesses. In two instances at 
JMU, we have reached out and redesigned academic programs 
towards more generalist programs because the business and 
industry were telling us that is what they wanted. They wanted 
students with strong STEM skills but that could apply them in a 
variety of contexts.
    They were not trained only as physicists, chemists, or 
mechanical engineers; and our students have found a lot of 
traction in the startup world and in small business because of 
this different skill set that students coming from more 
traditional programs do not have.
    Chair Landrieu. And I think our universities have to really 
wake up here and figure out how to think out of the box like 
you said, Dr. Taylor, and really stepped up to get this 
workforce in America moving in the right direction.
    Ms. Fiala, and then we are going to have a one minute wrap 
ups or 30 second wrap-ups from everybody. Go ahead.
    Ms. Fiala. A couple of quick points. The point on 
contextualized learning, the ability to kind of test out what 
you are learning from the classroom to the workplace is not 
just important for K through 12 and academics.
    We are finding that with adult learners, people who are 
going back to retraining, this is extraordinarily important.
    So, in the competitive grants that we award under the H-1B 
technical skill training program and frankly in our other 
grants, we have emphasized that people think outside the box in 
terms of building partnerships between community colleges and 
employers. And, we think it is important to have states there 
but we really believe that it needs to be employers at the 
regional or local level that need to articulate the skills and 
be engaged in the design of training and offer these work-based 
opportunities whether it is internship or a cooperative 
education program or at a secondary level it could be much 
shorter exposure to work.
    But to be able to make sure what is learned in a classroom 
is tested and valued in work, and we are identifying promising 
practices through H-1B skill grant programs with our partners.
    Chair Landrieu. And how much is in that grant program this 
upcoming year? What is proposed for your grants?
    Ms. Fiala. I can tell you what we have spent. So far in the 
last two rounds it is about $342 million in two rounds of H-1B 
technical skill grants competitions.
    Chair Landrieu. Okay.
    Ms. Fiala. And the nice thing about this is to be eligible 
to compete it has to be a partnership either of a business or a 
group of businesses or a trade organization and a post 
secondary education institution and the public workforce system 
so that you have the right partners at the table to really 
change and make a difference.
    Chair Landrieu. That is great and I would like some more 
information on that.
    We are going to go 30 seconds, real quick. Anything you did 
not say that you want to get on the record. The record will be 
open until June 6. And Senator Shaheen and Senator Risch had to 
leave.
    But go ahead, Ms. Wang.
    Ms. Wang. Thank you, Senator. I just want to make a point, 
enhance a point about connecting small businesses to this 
program. We need the help now; and we are, in fact, with JMU, 
we did an innovative partnership informal because we have been 
looking for security-cleared enterprise architects which no 
university actually produced until just a few years ago.
    JMU is one of them. Penn State is another one. We connected 
with JMU informally and has started to build a pipeline for our 
business.
    Chair Landrieu. Okay. Dr. Taylor.
    Ms. Taylor. Thank you. I want to thank everyone for the 
opportunity to be present and to share my perspective and I 
think it is very important that we go beyond this roundtable 
here, that we all continue the dialog because a lot of good 
ideas came about and it needs to be transformational as the 
Senator stated. And so, I would suggest and encourage all of us 
to put our thinking caps on and to continue to think outside of 
the box and to make STEM a part of our everyday life and 
culture and to not make it so monumental as being, and to 
demystify it. So, thank you.
    Chair Landrieu. Thank you. I am going to ask the staff to 
circulate to all of you the e-mails and contact information 
from all of you which is probably readily available on the 
Internet, but we will make it easy for you so that you all can 
stay in touch. I think this would be a good group of advisers 
for one another.
    Ms. Moneypenny.
    Ms. Moneypenny. So, just two points to wrap up. Again, 
thank you for the opportunity. I really appreciate it.
    The other point is really how are we going to do the 
communications to small business, because I hear 226 programs. 
I hear about grants. I hear about all of this stuff but I 
really would like to know how are you going to communicate that 
to small businesses.
    We are already busy, never mind about fighting the visa 
process. We are also busy doing those things as well as 
actually trying to hire staff and run our own businesses. So, 
how do we get to know about these new programs that the 
government is going to bring forward, you know, we really 
encourage that.
    Then the other part is really just in terms of partnership 
and getting the needs of our businesses into the curriculum. A 
lot of times, you know, it is like when we were talking before 
it is about, you know, 13-year-old people can build 
applications right now. They have the skill set. Some of them 
can learn if they have the willingness to learn from the 
Internet right now.
    Sometimes colleges are still teaching FORTRAN, which is 
from a language that nobody cares about and never will probably 
ever again.
    And so, so many people are learning these skills but it is 
like that is what kills you. That is why you do not want to 
graduate. If you know how to build an app for iTunes already, 
learning FORTRAN is going to put you to sleep. You are just 
going to get out there as fast as you can.
    Chair Landrieu. Can we find out how many universities are 
still teaching, what is it, FORTRAN? I would like the staff to 
find out and I would like a list of which ones they are.
    Ms. Moneypenny. Yes.
    Ms. Kolvoord. Not ours.
    Chair Landrieu. Okay. I would like to know that. Go ahead.
    Mr. Goodman. I would like to thank you. This has been a 
tremendous experience getting to participate in this. You 
illustrated some parts of the problems that I did not 
understand with the comparison to nursing. I think that was 
excellent.
    I realize that all of the greatest people that I work with 
are all working. They are not out teaching, and I think that 
that is a big part of the problem.
    But I also just wanted to reiterate that we do not just 
teach driving to people that want to become race car drivers 
and that it is these common skills and this passion. We have a 
thing in our company which is what I call the ``I made this'' 
moment and that is possible with this technology and that is 
when you transfer accountability of the outcome to the child 
and I think that is really when it comes to light.
    So again thank you.
    Chair Landrieu. Thank you so much. It is so refreshing to 
hear your words and thoughts.
    Ms. Mooney.
    Ms. Mooney. Thank you. My company is no longer a small 
business but it certainly once was and it grew from the 
basement that Senator Risch talked about. We still are the only 
company of our type that produces and manufactures in the 
United States and that is the talent that was here that has 
helped us grow. So, our foundation is still very involved in 
helping kids become engineers and scientists in the future so 
our companies and other small businesses can continue to grow.
    Chair Landrieu. And how large is your company now and when 
did you start?
    Ms. Mooney. We started in 1978. We now have 20,000 
employees in nine different countries.
    Ms. Moneypenny. Amazing. And you have helped to grow your 
own pipeline in Idaho?
    Ms. Mooney. Absolutely.
    Chair Landrieu. Great.
    Ms. Belsky.
    Ms. Belsky. Thank you again for having us here as well.
    What I am realizing at the end of this discussion is that 
we in the startup community have supported the broader 
immigration bill and I think not fully realizing where it might 
not help us.
    But one positive thing is I think until you have an 
organization like Engine Advocacy there have not really been 
that many organizations that pulled together the tech startup 
community and made them, given them a connection to Washington.
    So, I look forward to connecting with my colleagues on the 
panel here and bringing them into our organization but 
hopefully we can actually be a channel so that when the 
Committee does come up with other more specific ideas, we can 
disseminate them to the startup community which is sort of 
cheering in general but, I think, not really realizing how to 
effectuate the program.
    Chair Landrieu. Exactly. And you will be cheering yourself 
to no visas if we do not do something about this.
    Go ahead, Ms. Fiala.
    Ms. Fiala. Thank you, Senator, and I was madly taking notes 
while people were talking. So, it has been very useful. We are 
getting ready to think through our next round of H-1B technical 
skill training grants. So, I appreciate that.
    We are trying to help not only students but also adults, 
vulnerable long-term unemployed, under represented groups 
acquire skills in high-skill occupations including STEM. So, 
this was very useful to us.
    Chair Landrieu. Thank you.
    Ms. McAdams. Thank you so much. This was an incredibly 
diverse group of people but I think we all have the same common 
purpose. So, one of the best things for me at this table is to 
be a female in STEM surrounded by females in STEM who are 
taking it home to the kitchen table and talking with their 
little girls about this.
    In 10 years of teaching I kept thinking I was doing a 
really great job but the truth is we all have to do a really 
great job and we all have to inspire our students and I think 
that the Department of Education's launch into leadership in 
this space represents the belief that schools and teachers and 
districts cannot do this alone, that we really need partners.
    So I look forward to working with all of you and hope that 
you will feel free to e-mail me with ideas after we leave this 
room.
    Chair Landrieu. And I would just hope to add that you look 
to businesses like Micron, big businesses that could anchor 
that effort in each state, because I think you will find very 
good partners in the business community that can help the 
Department of Education hone and craft what their businesses 
need.
    And if you could identify two or three businesses in each 
state. For the Department of Education, it would seem to me 
that would be a piece that is probably missing and probably 
needs to be fixed.
    Ms. McAdams. Thank you.
    Mr. Uvin. Thank you for the opportunity to be here and also 
thank you for your leadership around all of these issues. I 
just want to underscore the importance of creating pathways 
that start early and that we can only do that if we engage our 
business partners actively in this.
    Those of you who are familiar with some our most recent 
reform proposals know that we are advancing an empowered role 
for businesses in our education reform work and there is more 
of that coming.
    Chair Landrieu. Thank you.
    Ms. Ferrini-Mundy. Thank you so much, Senator, for this 
session. It has been fascinating and energizing. One thing we 
did not get a lot of time to talk about, but now that we are 
going to be able to contact each other I look forward to doing 
so, is the particulars of the competencies and skills and 
knowledge that are needed in different sectors by different 
types of businesses.
    That is the sort of thing that I think we are all 
interested in, in understanding how to prepare people with 
those competencies and skills and how to measure them well 
because back to the point about it is not just about numbers of 
people graduating; it is really about whether they are 
graduating with the sort of quality experiences that enable 
them to really perform in the workplace.
    So, thank you again for the opportunity and the NSF looks 
forward to being a partner with you.
    Chair Landrieu. Thank you. Doctor.
    Dr. Kolvoord. Senator Landrieu, thank you very much for a 
very stimulating roundtable. Thanks to all the participants.
    There are institutions of higher education like James 
Madison University who are willing to be flexible, who want to 
innovate, who want to be responsive; and I think part of our 
job is to reach out and continue to share the lessons both the 
positives and the negatives of the experiences that we have had 
as we think about how to address these issues.
    This is a systemic problem. But the assessment piece that 
Dr. Ferrini-Mundy mentioned is also one that is critically 
important for us in higher education to actually show that 
there is value added to the experience and we are working hard 
on that at JMU as well.
    Chair Landrieu. Well, thank you and our roundtable is 
adjourned. We really appreciate it and the record will be open 
until June 6.
    [The participant information follows:]
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED
[GRAPHIC] [TIFF OMITTED] 86153.003

[GRAPHIC] [TIFF OMITTED] 86153.004

[GRAPHIC] [TIFF OMITTED] 86153.005

[GRAPHIC] [TIFF OMITTED] 86153.006

[GRAPHIC] [TIFF OMITTED] 86153.007

[GRAPHIC] [TIFF OMITTED] 86153.008

[GRAPHIC] [TIFF OMITTED] 86153.009

[GRAPHIC] [TIFF OMITTED] 86153.010

[GRAPHIC] [TIFF OMITTED] 86153.011

[GRAPHIC] [TIFF OMITTED] 86153.012

[GRAPHIC] [TIFF OMITTED] 86153.013

[GRAPHIC] [TIFF OMITTED] 86153.014

[GRAPHIC] [TIFF OMITTED] 86153.015

[GRAPHIC] [TIFF OMITTED] 86153.016

[GRAPHIC] [TIFF OMITTED] 86153.017

[GRAPHIC] [TIFF OMITTED] 86153.018

[GRAPHIC] [TIFF OMITTED] 86153.019

[GRAPHIC] [TIFF OMITTED] 86153.020

[GRAPHIC] [TIFF OMITTED] 86153.021

[GRAPHIC] [TIFF OMITTED] 86153.022

[GRAPHIC] [TIFF OMITTED] 86153.023

[GRAPHIC] [TIFF OMITTED] 86153.024

[GRAPHIC] [TIFF OMITTED] 86153.025

[GRAPHIC] [TIFF OMITTED] 86153.026

[GRAPHIC] [TIFF OMITTED] 86153.027

[GRAPHIC] [TIFF OMITTED] 86153.028

[GRAPHIC] [TIFF OMITTED] 86153.029

[GRAPHIC] [TIFF OMITTED] 86153.030

[GRAPHIC] [TIFF OMITTED] 86153.031

[GRAPHIC] [TIFF OMITTED] 86153.032

[GRAPHIC] [TIFF OMITTED] 86153.033

[GRAPHIC] [TIFF OMITTED] 86153.034

[GRAPHIC] [TIFF OMITTED] 86153.035

[GRAPHIC] [TIFF OMITTED] 86153.036

[GRAPHIC] [TIFF OMITTED] 86153.037

[GRAPHIC] [TIFF OMITTED] 86153.038

[GRAPHIC] [TIFF OMITTED] 86153.039

[GRAPHIC] [TIFF OMITTED] 86153.040

[GRAPHIC] [TIFF OMITTED] 86153.041

[GRAPHIC] [TIFF OMITTED] 86153.042

[GRAPHIC] [TIFF OMITTED] 86153.043

[GRAPHIC] [TIFF OMITTED] 86153.044

[GRAPHIC] [TIFF OMITTED] 86153.045

[GRAPHIC] [TIFF OMITTED] 86153.046

[GRAPHIC] [TIFF OMITTED] 86153.047

[GRAPHIC] [TIFF OMITTED] 86153.048

[GRAPHIC] [TIFF OMITTED] 86153.049

[GRAPHIC] [TIFF OMITTED] 86153.050

[GRAPHIC] [TIFF OMITTED] 86153.051

[GRAPHIC] [TIFF OMITTED] 86153.052

[GRAPHIC] [TIFF OMITTED] 86153.053

[GRAPHIC] [TIFF OMITTED] 86153.054

[GRAPHIC] [TIFF OMITTED] 86153.055

[GRAPHIC] [TIFF OMITTED] 86153.056

[GRAPHIC] [TIFF OMITTED] 86153.057

[GRAPHIC] [TIFF OMITTED] 86153.058

[GRAPHIC] [TIFF OMITTED] 86153.059

[GRAPHIC] [TIFF OMITTED] 86153.060

[GRAPHIC] [TIFF OMITTED] 86153.061

[GRAPHIC] [TIFF OMITTED] 86153.062

[GRAPHIC] [TIFF OMITTED] 86153.063

[GRAPHIC] [TIFF OMITTED] 86153.064

[GRAPHIC] [TIFF OMITTED] 86153.065

[GRAPHIC] [TIFF OMITTED] 86153.066

[GRAPHIC] [TIFF OMITTED] 86153.067

[GRAPHIC] [TIFF OMITTED] 86153.068

[GRAPHIC] [TIFF OMITTED] 86153.069

[GRAPHIC] [TIFF OMITTED] 86153.070

[GRAPHIC] [TIFF OMITTED] 86153.071

[GRAPHIC] [TIFF OMITTED] 86153.072

[GRAPHIC] [TIFF OMITTED] 86153.073

[GRAPHIC] [TIFF OMITTED] 86153.074

[GRAPHIC] [TIFF OMITTED] 86153.075

[GRAPHIC] [TIFF OMITTED] 86153.076

[GRAPHIC] [TIFF OMITTED] 86153.077

[GRAPHIC] [TIFF OMITTED] 86153.078

[GRAPHIC] [TIFF OMITTED] 86153.079

[GRAPHIC] [TIFF OMITTED] 86153.080

[GRAPHIC] [TIFF OMITTED] 86153.081

[GRAPHIC] [TIFF OMITTED] 86153.082

[GRAPHIC] [TIFF OMITTED] 86153.083

[GRAPHIC] [TIFF OMITTED] 86153.084

[GRAPHIC] [TIFF OMITTED] 86153.085

[GRAPHIC] [TIFF OMITTED] 86153.086

[GRAPHIC] [TIFF OMITTED] 86153.087

[GRAPHIC] [TIFF OMITTED] 86153.088

[GRAPHIC] [TIFF OMITTED] 86153.089

[GRAPHIC] [TIFF OMITTED] 86153.090

[GRAPHIC] [TIFF OMITTED] 86153.091

[GRAPHIC] [TIFF OMITTED] 86153.092



                                  <all>

</pre></body></html>
